September 26, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT:      Audit Report – Highway Network Scheduling - Southeast Area
              (Report Number TD-AR-03-014)

                                       Background

On July 5, 2002, the Office of Inspector General (OIG) announced an audit of
highway network scheduling. The announcement responded to a request from the
vice president, Network Operations Management, in support of the Postal Service
Breakthrough Productivity Initiative. This is one of a series of reports. It focuses on
the Southeast Area (Project Number 02YG017TD004).




        Highway contract route originating at Tampa Processing and Distribution Center,
                               Tampa, Florida, October 23, 2002.

                       Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes, and to identify opportunities for cost savings. The vice president,
Highway Network Scheduling – Southeast Area                                     TD-AR-03-014



Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. A total of 1,546 trips were
operated under the 183 Southeast Area contracts. In preparation for our work, we
provided plant managers in the Southeast Area with the list of contracts we intended to
audit. During our work, we interviewed officials at headquarters and in the Southeast
Area; reviewed relevant Postal Service policies and procedures; visited 13 processing
facilities; interviewed managers and employees; observed and photographed
operations; analyzed data in the Postal Service “Transportation Information
Management Evaluation System,” evaluated mail volume and critical entry times for
First-Class and Priority Mail; and analyzed all 1,546 trips. We did not evaluate the
reliability of the data obtained from the Transportation Information Management
Evaluation System. Work associated with the Southeast Area was conducted from
October 2002 through September 2003 in accordance with generally accepted
government auditing standards, and included such tests of internal controls as were
considered necessary under the circumstances. We discussed our conclusions and
observations with appropriate management officials, and included their comments,
where appropriate. After we issued our draft report, management made certain
suggestions with which we concurred. Consequently, we modified our final report to
accommodate those suggestions.

                                  Prior Audit Coverage
Our audit report, Highway Network Scheduling – Pacific Area (Report Number
TD-AR-02-003, dated September 24, 2002), identified 158 highway contract trips we
thought could be eliminated, and consequently result in savings to the Pacific Area of
about $4.5 million. Management agreed with 124 trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with 34 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations. For other related prior audit coverage see Appendix A.

                                        Audit Results
Unnecessary Highway Contract Trips

Our audit revealed the Postal Service could save about $11.3 million ($.8 million for the
remainder of fiscal year (FY) 2003 and $10.5 million in future years) by canceling
101 unnecessary trips. The trips could be terminated because trip mail volume was
low, and mail could be consolidated on other trips without negatively affecting service.
As indicated below, five of the affected contracts expired in June 2003. The other
25 contracts have 1 to 3 years remaining.




                                              2
Highway Network Scheduling – Southeast Area                                          TD-AR-03-014




                   TRIP                    AFFECTED       NUMBER OF    ANTICIPATED
                 CATEGORY                 CONTRACTS         TRIPS        SAVINGS

       Contracts which expired in
       June 2003                               5             18         $ 3,892,306

       Contracts expiring in
       1 to 3 years                            22            83          7,460,575

       All Terminated Trips                    27            101       $11,352,881


Savings could be attained by not renewing contract trips identified as unnecessary that
expired in June 2003 and canceling unnecessary trips that are currently contracted to
continue 1 to 3 years. The savings we identified included savings from nonrenewable
trips, plus savings from trip cancellations net of cancellation fees totaling approximately
$1.3 million.

After we completed our analysis, we discussed the 101 trips with plant managers and
area officials. The Postal Service has a Breakthrough Productivity Initiative underway,
whose goal is to optimize the movement of mail on the transportation network and
reduce expenditures for mail transportation. The Southeast Area conducted a
Breakthrough Productivity Initiative review during the course of our audit in the Atlanta
Area. Postal Service officials identified 54 trips for cancellation as a result of the
Breakthrough Productivity Initiative review. In addition, plant managers agreed that an
additional 23 trips could be canceled, but disagreed with our assessment of 24 trips.
The trip cancellation proposals are summarized below:


                               TRIP CANCELLATION PROPOSALS


                  CANCELLATION                  NUMBER                 IDENTIFIED
                    CATEGORY                    OF TRIPS    APPENDIX     SAVING

       Cancellations identified during the
       Breakthrough Productivity Initiative         54         B       $ 8,298,053

       Trips we identified during audit work
       with which plant managers agreed.            23         C         1,313,316

       Trips we identified during audit work
       with which plant managers disagreed.         24         D         1,741,512

       Total                                        101                $11,352,881




                                                3
Highway Network Scheduling – Southeast Area                                     TD-AR-03-014



The plant managers disagreed with the 24 proposals for various reasons—generally
that eliminating the trips would reduce operational flexibility. We revisited each of the
trips with the plant managers and reconsidered trip mail volume and service
requirements. We continue to believe the potential for trip cancellation without
jeopardizing service or operational flexibility and savings exists.

Recommendation

We recommend the vice president, Southeast Area Operations:

   1. Verify the actual cancellation of the 54 trips identified during the Breakthrough
      Productivity Initiative.

Management’s Comments

Management concurred with the intent of our finding and recommendation. They stated
that to date, they had eliminated or adjusted all trips. Management’s comments, in their
entirety, are included in Appendix E of this report.

Recommendation

   2. Cancel the 23 trips, which plant managers agree are unnecessary.

Management’s Comments

Management concurred with the intent of our finding and recommendation.
Management stipulated that many of the trips we recommended for cancellation
required their further analysis because they could not verify their plant manager’s
concurrence. They explained trips were subject to changing requirements and reserved
the right to make adjustments or substitutions. Management also stated they
anticipated completion of their analysis no later than November 1, 2003, and they would
notify us when all actions were completed.

Recommendation

   3. Reassess the 24 trips plant managers feel are necessary, cancel trips indicated
      by the reassessment as unnecessary, and document the reasons for retaining the
      other trips.

Management’s Comments

Management concurred with the intent of our finding and recommendation. They stated
they would reassess the recommended trip cancellations, retain or eliminate the trips as
may be appropriate, and notify us of the action taken.




                                              4
Highway Network Scheduling – Southeast Area                                   TD-AR-03-014



Other Management’s Comments

Management stated they were unable to validate our monetary findings at this time.
They explained that their normal methodology was to restrict savings calculations to a
1-year planning and budgeting cycle and that they understood OIG calculations
extended beyond the current year. They explained that because of changing
requirements, trip substitutions or adjustments, and differing methodologies for
calculating cost benefit, their savings calculations differed from the OIG’s. They
acknowledged our willingness to work with them to reconcile differences and expressed
appreciation for that opportunity. They stated when their reassessment of all trip
cancellations was complete, and when they had reconciled methodologies for
calculating cost benefit, they would specify anticipated savings.

Evaluation of Management’s Comments

Management’s comments are responsive to our findings and recommendations.
Management correctly identified the dynamic nature of changing highway transportation
requirements, as well as differing methodologies for identifying savings. For example,
management pointed out that the OIG methodology is not restricted to the 1- year
planning and budgeting cycle. That is a correct observation. As we specified in our
report, the methodology is linked to contract term net of applicable cancellation fees.
We share management’s perspective that optimization of scheduled highway trips is an
important continuing objective. We believe our audit served as a significant catalyst
toward that objective. We look forward to continued work with management in order to
optimize networks and save money. Management’s actions taken or planned should
correct the issues identified in the report.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendations should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations
Attachment




                                              5
Highway Network Scheduling – Southeast Area       TD-AR-03-014



cc: Patrick R. Donahoe
    John A. Rapp
    Anthony M. Pajunas
    Susan M. Duchek




                                              6
Highway Network Scheduling – Southeast Area                                  TD-AR-03-014



                    APPENDIX A. PRIOR AUDIT COVERAGE
Our audit report, Highway Network Scheduling – Northeast Area (Report
Number TD-AR-03-002, dated November 25, 2002), identified 18 highway contract
trips we thought could be eliminated, and consequently result in savings to the
Northeast Area of about $777,000. Management agreed with ten trip terminations, but
subsequently made certain substitutions they considered appropriate. Although local
plant managers disagreed with eight trips we identified, management agreed to
reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all
canceled trips, as well as the resulting savings. We considered management’s actions
responsive to our recommendations.

Our draft audit report, Highway Network Scheduling – Capital Metro Area (Report
Number TD-AR-03-007, dated March 28, 2003), identified 34 highway contract trips
we thought could be eliminated, and consequently result in savings to the Capital
Metro Area of about $1.1 million. Plant managers agreed that 20 trips should be
canceled, but disagreed with our assessment of another 14 trips. We recommended
management cancel the 20 trips, which plant managers agree are unnecessary, and
reassess the 14 trips plant managers feel are necessary. We considered
management’s actions responsive to our recommendations.

Our draft audit report, Highway Network Scheduling – New York Metro Area (Report
Number TD-AR-03-008, dated March 31, 2003), identified 32 highway contract trips we
thought could be eliminated, and consequently result in savings to the New York Metro
Area of about $470,000. Plant managers agreed 12 trips should be canceled, but
disagreed with our assessment of another 20 trips. We recommended management
cancel the 12 trips, which plant managers agree are unnecessary, and reassess the
20 trips plant managers feel are necessary. We considered management’s actions
responsive to our recommendations.


.




                                              7
        Highway Network Scheduling – Southeast Area                                                                                     TD-AR-03-014




                                              APPENDIX B
                TRIP CANCELLATIONS IDENTIFIED DURING THE BREAKTHROUGH PRODUCTIVITY
                                 INITIATIVE REVIEW DURING THE AUDIT
 Effective
Date of Last     Highway                                                                                                                                Estimated
 Contract        Contract                                                                                               Contract        Indemnity         Cost
  Change          Route            Trip Number                              Origin/Destination                          Savings           Fees1          Savings

                            5, 6, 8, 9, 3003, and      Atlanta Processing and Distribution Center to Montgomery
   9/3/02          30010    3004,                      Processing and Distribution Center and Return                    $    475,134      $         0   $ 475,134
                            803, 805, 806, 810, 811,
                            812, 813, 814, 815, 816,   Atlanta Bulk Mail Center to Knoxville Processing and
   9/6/02          30193    818, 801, and 804          Distribution Center and Return                                       2,170,329      321,530       1,848,799
                                                       Tallahassee Processing and Distribution Center to Clinton
  9/10/02          323CE    3702, 3703, and 3706       Facility and Return                                                  1,217,579              0     1,217,579
  5/18/02          30198    801 and 803                Atlanta Bulk Mail Center to Selma Facility and Return                  273,092         40,458       232,634
                            3701, 3702, 3703, 3704, Macon Processing and Distribution Center to Clinton Facility
  5/20/02          310CE    3705, and 3706             to Macon Processing and Distribution Center and Return               2,008,930               0    2,008,930
                            3702, 3703, 3704, 3705,
  5/18/02          301L2    3706, and 3707             Clinton Facility to Atlanta Facility and Return                      1,219,791      180,710       1,039,081
                                                       Chattanooga Facility to Atlanta Airport Mail Center to Atlanta
                                                       Processing and Distribution Center and Return;
                            3, 4, 3001, 3002, 805,     Chattanooga Facility to Atlanta Facility and Return;
  10/4/02          30096    815, 818, and 823          Chattanooga Facility to Atlanta Bulk Mail Center and Return           627,123          92,907       534,216
                                                       Atlanta Processing and Distribution Center to Birmingham
                                                       Processing and Distribution Center and Return; Atlanta Air
                                                       Mail Center to Birmingham Processing and Distribution
                                                       Center and Return; Atlanta Facility to Birmingham
                            9, 10, 13, 22, 3005, 3007, Processing and Distribution Center and Return; Atlanta
                            3012, 3020, 3011, and      Delta Cargo to Birmingham Processing and Distribution
  7/24/02          300U1    3015                       Center                                                            1,105,451         163,771         941,680
                    Total            54 Trips                                                                           $9,097,429        $799,376      $8,298,053


        1
            Highway contract routes reflecting $0 indemnity fees expire in June 2003.


                                                                                 8
           Highway Network Scheduling – Southeast Area                                                                        TD-AR-03-014




                                                       APPENDIX C
                                     TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                PLANT MANAGERS AGREED
 Effective
Date of Last        Highway                                                                                                            Estimated
 Contract           Contract                                                                                Contract      Indemnity      Cost
  Change             Route        Trip Number                       Origin/Destination                      Savings         Fees1       Savings

12/28/02             35636       6 and 13         Huntsville Processing and Distribution Center to          $    69,341     $ 7,112    $     62,229
                                                  Athens Facility and Return
7/2/02               36018       4                Selma Facility to Montgomery Processing and                    13,329        1,346         11,983
                                                  Distribution Center
8/10/02              300U0       23 and 6         Atlanta Air Mail Center to Augusta Facility                   170,509       25,261       145,248
9/28/02              305L1       1, 2, 7, and 8   Athens Processing and Distribution Center to Buford           110,970       31,322        79,648
                                                  Facility and Return
5/18/02              30015       3 and 4          Macon Processing and Distribution Center to                   257,272       38,114       219,158
                                                  Waycross Facility and Return
7/1/00               378ME       3700, 3701,      Clinton Facility to Knoxville Processing and                   31,253        8,334         22,919
                                 3706, and 3707   Distribution Center and Return; Clinton Facility to
                                                  Knoxville Air Mail Facility to Knoxville Processing and
                                                  Distribution Center and Return
7/1/02               33111       605 and 606      Miami Priority Mail Processing Center to South Florida         65,721        6,741         58,980
                                                  Mail Processing Center and Return
7/1/02               32016       9, 10, 11, and   North Florida Mail Processing Center and Return               774,792      135,159       639,633
                                 12
4/20/02              30541       1 and 2          Athens Facility to Gainesville Facility and Return            86,304        12,786       73,518
                     Total           23 Trips                                                               $1,579,491      $266,175   $1,313,316




                                                                               9
           Highway Network Scheduling – Southeast Area                                                                         TD-AR-03-014




                                   APPENDIX D. TRIPS IDENTIFIED DURING AUDIT WORK
                                      WITH WHICH PLANT MANAGERS DISAGREED
Effective Date of       Highway                                                                                                           Estimated
 Last Contract          Contract                                                                               Contract      Indemnity      Cost
    Change               Route         Trip Number                       Origin/Destination                    Savings         Fees1       Savings

2/9/02                    39047       8 and 9            Meridian Facility to Jackson Processing and           $    99,845     $ 13,313   $    86,532
                                                         Distribution Center and Return
11/3/01                  38760        1 and 2            Greenville Facility to Grenada Facility and Return        118,268       17,521       100,747
11/3/01                  389AO        3 and 4            Grenada Facility to Jackson Processing and                 69,286            0        69,286
                                                         Distribution Center and Return
10/28/00                 387BD        1 and 2            Greenville Facility to Memphis Air Mail Center and        281,977       41,774       240,203
                                                         Return
10/5/02                   35045       8                  Gadsden Facility to Birmingham Facility                   121,377            0       121,377
12/28/02                  35636       3 and 4            Huntsville Facility to Athens Facility and Return          75,795        7,774        68,021
1/15/03                   36010       5 and 2            Montgomery Processing and Distribution Center to          147,983       15,178       132,805
                                                         Opelika Facility; Auburn Facility to Montgomery
                                                         Processing and Distribution Center
8/10/02                   300U0       3013               North Metro Facility to Augusta Facility and Return       160,273       23,744       136,529
4/20/02                   30541       6 and 12           Athens Facility to Gainesville Facility and Return;        48,472        7,181        41,291
                                                         Gainesville Facility to North Metro Processing and
                                                         Distribution Center
9/7/02                    30095       842 and 843        Atlanta Bulk Mail Center to Birmingham Processing         297,447       44,066       253,381
                                                         and Distribution Center and Return
4/20/02                   30810       3 and 4            Augusta Processing and Distribution Center to              20,296        3,007        17,290
                                                         Macon Processing and Distribution Center and
                                                         Return
7/1/02                    37813       4603 and           Knoxville Processing and Distribution Center to
                                      4604               Indianapolis Facility and Return                          293,742       15,064       278,678
11/2/02                   37010       7 and 8            Nashville Processing and Distribution Center to
                                                         Nashville Facility to Chattanooga Processing and
                                                         Distribution Center and Return                           229,350        33,978      195,372
                          Total          24 Trips                                                              $1,964,111      $222,600   $1,741,512




                                                                                10
Highway Network Scheduling – Southeast Area           TD-AR-03-014



                  APPENDIX E. MANAGEMENT’S COMMENTS




                                              11
Highway Network Scheduling – Southeast Area        TD-AR-03-014




                                              12
